 ACTIONS NEEDED TO MINIMIZE
LONG, ON-BOARD FLIGHT DELAYS
  Office of the Secretary of Transportation

      Report Number: AV-2007-077
     Date Issued: September 25, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Actions Needed To Minimize Long,                   Date:    September 25, 2007
           On-Board Flight Delays
           Office of the Secretary of Transportation
           Report Number AV-2007-077
  From:                                                            Reply to
           Calvin L. Scovel III                                    Attn. of:   JA-1
           Inspector General
    To:    Secretary of Transportation

           Thousands of passengers suffered long, on-board aircraft delays triggered by
           severe weather last winter, causing serious concerns about the airlines’
           contingency planning for such situations.

             • On December 29, 2006, the Dallas-Fort Worth area experienced unseasonably
               severe weather that generated massive lightning storms and a tornado warning;
               this caused the airport to shut down operations several times over an 8-hour
               period. American Airlines (American) diverted over 100 flights, and many
               passengers on those flights were stranded on board aircraft on the tarmac for as
               long as 9 hours. The number of diversions on this date was second only to the
               number reached on September 11, 2001.

             • On February 14, 2007, snow and ice blanketed the northeastern United States.
               JetBlue Airways (JetBlue) stranded hundreds of passengers aboard its aircraft
               on the tarmac at John F. Kennedy International Airport (JFK) for as long as
               10 and a half hours. At 1 point during that day, JetBlue had 52 aircraft on the
               ground with only 21 available gates. JetBlue has publicly admitted
               shortcomings in its systems that were in place at the time for handling such
               situations.

           This report presents the results of the review you requested in response to these
           incidents.    Our audit objectives—based on your February 26, 2007,
           memorandum—were to: (1) look into the specific incidents involving American
           and JetBlue, during which passengers were stranded on board aircraft for extended




                                                    i
periods of time; (2) examine the Air Transport Association’s (ATA) 1 member
airlines’ 2 customer service plans, contracts of carriage, 3 and internal policies
dealing with long, on-board delays; (3) highlight best practices that could help
deal with these situations; and (4) provide recommendations on what airlines,
airports, and the Government can do to prevent recurrence of such events.

Other incidents in 2006 and 2007 highlight airline customer service issues and the
need for coordinated contingency planning to prevent long, on-board delays:

    • On December 20, 2006, severe blizzards closed Denver’s airport, causing
      several flights to divert to other airports. United Airlines diverted two flights
      to Cheyenne, Wyoming. The following morning, United’s flight crew and
      attendants boarded the aircraft and departed, leaving all 110 passengers behind
      to take care of themselves.
    • On March 16, 2007, an ice storm hit the Northeast, causing numerous delays
      and cancellations and forcing passengers to endure long, on-board flight
      delays. In fact, several Office of Inspector General staff were flying that day
      and observed first-hand a 9-hour, on-board delay.
    • On July 29, 2007, because of severe weather, a Continental Airlines flight from
      Caracas, Venezuela, to Newark, New Jersey, was diverted to
      Baltimore-Washington International Airport, where passengers were stranded
      on the tarmac for over 4 hours. Because this was an international flight,
      Federal law prohibited Continental from allowing passengers off the plane;
      however, Continental could have provided for customers’ essential needs
      during this ordeal.
    • On August 9, 2007, severe, east-bound weather stranded hundreds of
      US Airways passengers on board aircraft at Philadelphia International Airport,
      some for up to 6 hours.
    • On August 11, 2007, at Los Angeles International Airport, more than
      17,000 in-bound passengers on 73 international flights were stranded on board
      aircraft or in the terminal holding area for 10 hours because U.S. Customs
      authorities were unable to screen them due to a computer outage. We note that
      in incidents involving international flights, airlines and airports have little, if


1
    The Air Transport Association is the trade association for America’s largest air carriers. Its members transport over
    90 percent of all the passenger and cargo traffic in the United States.
2
    The 13 ATA member airlines included in our review were: Alaska Airlines, Aloha Airlines, American Airlines, ATA
    Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines, JetBlue Airways, Midwest Airlines, Northwest
    Airlines, Southwest Airlines, United Airlines, and US Airways. During our review, ATA Airlines terminated its
    membership in ATA.
3
    A contract of carriage is the document air carriers use to specify legal obligations to passengers. Each air carrier
    must provide a copy of its contract of carriage free of charge upon request. The contract of carriage is also available
    for public inspection at airports and ticket offices.


                                                             ii
      any, control over the amount of time passengers are inconvenienced because
      passenger screening and processing is outside of their control.

We conducted this review between March 2007 and September 2007, in
accordance with generally accepted Government Auditing Standards as prescribed
by the Comptroller General of the United States. To conduct our analysis, we
requested a range of data from selected airlines related to weather, operations, and
customer service. Exhibits A through D provide details on: (A) our objectives,
scope and methodology, and related audits; (B) selected airlines’ terms and
conditions for handling long, on-board delays; (C) selected airports’ policies for
assisting in long, on-board delays; and (D) stakeholders visited or contacted.


BACKGROUND
Accommodating passengers during long, on-board delays is a major customer
service challenge that airlines face. However, this is not a new problem for the
airlines. Airline customer service first took center stage in January 1999, when
hundreds of passengers remained in planes on snowbound Detroit runways for up
to 8 and a half hours. After those events, both the House and Senate considered
whether to enact a “passenger bill of rights.”

Following hearings after the
January 1999 incident, Congress,       Figure 1. Provisions of the Airline Customer
the Department of Transportation • Offer the lowest Service         Commitment
                                                        fare available.
(DOT), and ATA agreed that the • Notify customers of known delays, cancellations, and diversions.
air carriers should have an • Deliver baggage on time.
opportunity to improve their •• Support         an increase in the baggage liability limit.
                                        Allow reservations to be held or cancelled.
customer       service     without • Provide prompt ticket refunds.
legislation. To demonstrate the • Properly accommodate disabled and special-needs passengers.
                                      • Meet customers’ essential needs during long, on-aircraft delays.
airlines’ ongoing dedication to • Handle “bumped” passengers with fairness and consistency.
improving air travel, ATA and its • Disclose travel itinerary, cancellation policies, frequent flyer
member airlines executed the • rules,        and aircraft configuration.
                                        Ensure good customer service from code-share partners.
Airline      Customer      Service • Be more responsive to customer complaints.
Commitment (the Commitment), 4
on June 17, 1999. Each ATA Source: Airline Customer Service Commitment, June 1999
airline agreed to prepare a
customer service plan implementing the 12 provisions of the Commitment (see
figure 1); including a provision to meet customers’ essential needs during long,
on-aircraft delays; and prepare contingency plans to address such circumstances.
4
    ATA signed the Commitment on behalf of the then 14 ATA member airlines (Alaska Airlines, Aloha Airlines,
    American Airlines, American Trans Air, America West Airlines, Continental Airlines, Delta Air Lines, Hawaiian
    Airlines, Midwest Express Airlines, Northwest Airlines, Southwest Airlines, Trans World Airlines, United Airlines,
    and US Airways). JetBlue was not an airline or a member of ATA when ATA made its commitments.


                                                          iii
Because aviation delays and cancellations continued to worsen, eventually
reaching their peak during the summer of 2000, Congress directed our office to
evaluate the effectiveness of the Commitment and the customer service plans of
individual ATA airlines. We issued our final report 5 in February 2001. Although
the ATA airlines made progress toward meeting the Commitment, we found that
the Commitment did not directly address the underlying causes of deep-seated
customer dissatisfaction—flight delays and cancellations. This is still the case
today with record-breaking flight delays and cancellations leading to more long,
on-board delays.


Rising Flight Delays Are Leading to More Long, On-Board Delays
Based on the first 7 months of the year, it is clear that 2007 may be the busiest 6
travel period since the peak of 2000 and may surpass the 2000 record levels for
flight delays, cancellations, and diversions. So far in 2007, nearly 28 percent of
flights were delayed, cancelled, or diverted compared to about 24 percent during
the same period in 2006. In 2006, nearly 25 percent of domestic flights were
delayed, cancelled, or diverted, the highest percentage since peak year 2000, when
it hit 27 percent. Figure 2 illustrates the changes in percentage of domestic flights
delayed, cancelled, or diverted from 2000 to 2007.

                                      Figure 2. Percent of Flights Delayed, Cancelled,                                          Figure 3. Average Length of Arrival Delays
                                           or Diverted for Years 2000 to 2007                                                            for Years 2000 to 2007

                                                                                                                           60                                                    56.7
                                     30%   27.4%                                                   27.8%                                                                  54.0
                                                                                                                                52.5                        51.4   52.2
                                                                                           24.6%                                       49.2          48.9
      Percent of Scheduled Flights




                                                                                                                                              46.8
                                     25%           22.6%                           22.6%
                                                                           21.9%
                                                                                                                           45

                                     20%                   17.9%   18.0%
                                                                                                                 Minutes




                                     15%                                                                                   30


                                     10%
                                                                                                                           15

                                     5%


                                     0%                                                                                     0
                                           2000    2001    2002    2003    2004    2005    2006    2007*                        2000   2001   2002   2003   2004   2005   2006   2007*




     *January through July                                                                                      *January through July
     Source: BTS data                                                                                           Source: BTS data

Not only are there more delays, but also longer delay durations. Of domestic
flights arriving late in 2006, the average delay was a record-breaking 54 minutes.
Figure 3 illustrates the changes in the average length of flight delays from 2000 to
2007. Based on the first 7 months of data, it is clear that 2007 could be even


5
    OIG Report Number AV-2001-020, “Final Report on Airline Customer Service Commitment,” February 12, 2001.
    OIG reports and testimonies are available on our website: www.oig.dot.gov.
6
    As measured by scheduled departures.


                                                                                                           iv
worse. For flights that arrived late, passengers experienced an average flight delay
of nearly 57 minutes, up nearly 3 minutes from 2006.

These rising flight delays are leading to more on-board tarmac delays. Based on
the first 7 months of 2007, over 54,000 scheduled flights—affecting nearly
3.7 million passengers—experienced taxi-in and taxi-out times of 1 to 5 hours or
more (see table 1). This is an increase of nearly 42 percent (from 38,076 to
54,029) as compared to the same period in 2006.

             Table 1. Number of Flights With Long, On-Board Tarmac Delays of
                    1 to 5+ Hours January Through July of 2006 and 2007
                         Time Period                2006            2007         % Change

                            1-2 Hrs.               33,438          47,558            42.23
                            2-3 Hrs.               3,781            5,213            37.87
                            3-4 Hrs.                710             1,025            44.37
                            4-5 Hrs.                120              189             57.50
                           5 or > Hrs.               27               44             62.96
                             Total:                38,076          54,029            41.90
                      Source: OIG analysis based on BTS data

Rising Flight Delays Are Also Leading to More Air Traveler
Complaints
DOT’s Air Travel Consumer Reports disclosed that, for the first 7 months of 2007,
complaints against U.S. airlines increased nearly 65 percent (3,947 to 6,504) over
complaints during the same period in 2006, with complaints relating to flight
problems (delays, cancellations, and missed connections) more than doubling
(1,096 to 2,468) for the same period. Complaints in 2007 have already exceeded
full-year 2006 complaint totals, including complaints about flight problems.

Over the last several years, flight
                                                                          Figure 4. Air Travel Consumer
problems have ranked as the number                                              Complaints, 2006
one air traveler complaint to DOT,
                                                                                      Others        Flight
with    baggage    complaints     and                                       Disability 12%
                                                                                                   Problems
              7                                                                6%
customer care ranked as number two                                                                   29%
                                                                           Refunds
and number three, respectively. As                                           7%
shown in figure 4, flight problems                                      Reservations
accounted for more than one-quarter                                     Ticketing &
                                                                         Boarding Customer        Baggage
of all complaints the Department                                           11%       Care          22%
received in 2006. So far, this year is                                               13%
                                                            Source: DOT’s Air Travel Consumer Reports for 2006
7
    Complaints such as poor employee attitude, refusal to provide assistance, unsatisfactory seating, and unsatisfactory
    food service are categorized as customer care complaints.


                                                           v
becoming a near record-breaking year percentage-wise for flight problem
complaints, with those accounting for nearly 38 percent of all complaints the
Department received in the first 7 months of 2007.


Passengers’ Flight Experiences Are Further Complicated by Capacity
and Demand Matters
Air travelers’ dissatisfaction with flight problems, especially cancellations, is
further compounded by reduced capacity and increased demand, which leads to
fuller flights. Domestic-wide, the first 6 months of 2007 (the most recent data
available) compared to the same period in peak-year 2000 show that:

 • The number of scheduled flights (capacity) decreased from 5.5 million in 2000
   to 5.0 million in 2007, a drop of 9 percent. Scheduled seats also declined by
   over 9 percent between 2000 and 2007, from 510 million to 462 million.

 • Even though the number of flights and seats declined, passenger enplanements
   went up over 12 percent, from 312 million passengers in 2000 to 350 million
   passengers in 2007.

 • Reduced capacity and increased demand led to fuller flights. For 2007,
   average load factors increased from 71.1 percent in 2000 to 79.7 percent in
   2007, with an unprecedented 86.1 percent in June.

 • Reduced capacity and higher load factors can also result in increased
   passenger inconvenience and dissatisfaction with customer service. With more
   seats filled, air carriers have fewer options to accommodate passengers from
   cancelled flights.

The extent to which delays and cancellations will continue to impact passengers in
2007 depends on several key factors, including weather conditions, the impact of
the economy on air travel demand, and capacity management at already congested
airports.


EXECUTIVE OVERVIEW
Flight delays and cancellations continue as a major source of customer
dissatisfaction. The severity of the on-board delays last winter drew national
attention and demonstrated that airlines, airports, the Federal Aviation
Administration (FAA), and DOT must work together to reduce long, on-board
delays and minimize the impact on passengers when these delays occur. The
winter events that received the most attention concerned two carriers: American
and JetBlue. On December 29, 2006, American’s operations at Dallas-Fort Worth


                                        vi
International Airport (DFW) were severely affected by unprecedented weather
leading to 654 flight cancellations, 124 diversions, and 44 long on-board delays
exceeding 4 hours. The diversions to Austin-Bergstrom International Airport
generated substantial interest because some of the lengthiest on-board delays
occurred there—in one case, for over 9 hours. JetBlue’s JFK operations also
suffered on February 14, 2007, when severe weather hit the northeastern United
States, leading to 355 cancellations, 6 diversions; and 26 long, on-board delays
exceeding 4 hours.
While weather was the primary contributor to the extraordinary flight disruptions
it was not the only factor in passengers being stranded on board aircraft for long
periods of time. We found that neither airline had a system-wide policy or
procedure in place to mitigate long, on-board delays and off-load passengers
within a certain period of time. American also did not control the number of
diverted flights to some airports, which overwhelmed its operations at Austin.

JetBlue was committed to its long-standing practice of not cancelling flights. As a
result, its personnel at JFK airport became overwhelmed with the sheer number of
arriving and departing aircraft on the ground at the same time, with no gates
available for deplaning passengers on arriving flights.

We also found that other airlines experienced flight disruptions on those two dates;
some were able to minimize the time passengers spent on-board aircraft while
others experienced similar on-board delays. For example, Delta Airlines had more
flights delayed at JFK than JetBlue on February 14, 2007, with a total of 54 flights
being delayed more than 1 hour versus 43 for JetBlue.

We examined 13 airlines’ customer service plans, including customer service
commitments, contracts of carriage, policies, and contingency plans dealing with
extended ground delays aboard aircraft. In addition, we reviewed 13 selected
airports’ 8 contingency plans. We found that both airline and airport contingency
plans are limited in addressing long, on-board delays. In fact, we found that there
has been little improvement from what we reported in 2001—that only a few
airlines’ contingency plans specified in any detail the efforts planned to get
passengers off the aircraft when delayed for extended periods and that airlines had
not clearly and consistently defined terms in the 1999 Commitment provision
(such as what constitutes an “extended period of time” for meeting passengers
essential needs or a “long, on-board delay” before deplaning passengers).



8
    Austin-Bergstrom International, Chicago O’Hare International, Dallas/Fort Worth International, Dallas Love Field,
    General Mitchell International, George Bush Intercontinental, Hartsfield-Jackson Atlanta International, Honolulu
    International, Indianapolis International, John F. Kennedy International, Minneapolis-St. Paul International, Phoenix
    Sky Harbor International, and Seattle-Tacoma International.


                                                           vii
Our examination of the 13 airports, including 12 major hub airports, (see
exhibit C) found that only 2 airports have a process for monitoring and mitigating
long, on-board delays that involves contacting the airline to request a plan of
action after an aircraft has remained for 2 hours on the tarmac. We also found that
airports intervene only upon an airline’s request primarily because they do not
have the authority to interfere with a carrier’s operations during long, on-board
delays.

Airport operators must collaborate with airlines to establish a policy for how long
passengers can be kept aboard aircraft while on the ground during extraordinary
flight disruptions.

As requested, we also identified best practices and initiatives that could help deal
with long on-board delays. For example, some airlines and airports keep gate
space open for off-loading passengers in times of irregular operations. Some also
constantly monitor aircraft on the tarmac so when an aircraft remains for more
than a certain period of time (typically 2 hours), the airline manager can
coordinate the aircraft’s return to a gate. Also, two major airport operators—the
Port Authority of New York and New Jersey and Hartsfield-Jackson Atlanta
International Airport—are looking into procedural improvements, such as more
efficient use of the runways at JFK, and customer service improvements, such as
best methods for getting passengers off aircraft and reducing the amount of time
they are kept on aircraft. These practices are good steps, but, in our opinion, a
more comprehensive plan of action is needed to mitigate long, on-board delays
and should involve collaboration among airlines, airports, FAA, and DOT.

We still maintain that all airlines’ customer service plans should specify in detail
the efforts that will be made to get passengers off aircraft that are delayed for long
periods, either before departure or after arrival. Airlines should also incorporate
these policies in their contracts of carriage and post them on their Internet sites.
To ensure adherence to the policies, airlines must resume efforts to self-audit their
customer service plans. We recommended most of these actions in our 2001
report, and the airlines agreed and stated plans to implement them. We realize that
setting a time limit on delay durations will have to be tailored to individual airlines
and airports and will heavily depend on the situation. Airlines and airports need to
work together to determine the various situations that can occur and devise plans
for handling those occurrences.

The airlines also agreed to establish a task force of representatives from airlines,
airports, and FAA to develop and coordinate contingency plans to deal with
lengthy delays. Although the task force was formed, the effort never materialized
as priorities shifted after September 11, 2001. In our testimony before the House




                                         viii
Subcommittee on Aviation in April 2007, 9 we recommended that the task force be
reconvened, and, to date, there still has been no action to do so. Now is the time
for airlines to reconvene a national task force and develop and coordinate
contingency plans with local airports and FAA to deal with lengthy delays.

In addition, DOT should take a more active role in overseeing customer service
issues to ensure that airlines comply with their policies governing long, on-board
delays, especially in the event that health and safety hazards arise from such
delays, and advise Congress if the airlines retreat from the commitment provisions
or dilute the language in the current contracts of carriage.


SUMMARY OF RECOMMENDATIONS
Our recommendations focus on actions that could help the Department, airlines,
and airports improve customer service for air travelers; these include:

    • Defining what constitutes an “extended period of time” for meeting
      passengers’ essential needs and setting limits for delay durations.

    • Establishing specific targets for reducing chronically delayed or cancelled
      flights.

    • Disclosing on-time flight performance.

    • Requiring airports to establish a process for monitoring lengthy, on-board
      delays.

    • Establishing a national task force of airlines, airports, and FAA to develop and
      coordinate contingency plans to deal with lengthy delays.

    • Conducting incident investigations involving long, on-board ground delays.

    • Directing the Office of Aviation Enforcement and Proceedings to ensure that
      airlines comply with their public policies governing long, on-board delays.

A complete list of our recommendations can be found on pages 21 and 22.




9
    OIG Testimony Number CC-2007-046, “Actions Needed To Improve Airline Customer Service,” April 20, 2007.


                                                      ix
DEPARTMENT, AIRLINE, AND AIRPORT COMMENTS
We provided American Airlines, JetBlue Airways, and Airports Council
International-North America with various sections of our report related to their
airline or organization and included their comments as appropriate. On
September 19, 2007, we met with Air Transport Association and airline
representatives to discuss our report. We provided the Office of the Secretary’s
General Counsel and the Assistant Secretary for Aviation and International Affairs
Offices with our draft report. On September 20, 2007, we met with staff from
General Counsel’s Office of Aviation Enforcement and Proceedings and received
their verbal comments. Their comments were incorporated into this report as
appropriate.

We also received a memorandum from the Secretary of Transportation on
September 24, 2007, which stated that she is fully committed to improving the air
travel environment for passengers. The Secretary has directed DOT staff to
carefully consider the recommendations in this report, including those for
improving the information provided to the public and the manner in which
passengers are treated, including compliance by carriers with their own policies.
The appendix to this report presents the full text of the Secretary’s memorandum.


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, within
30 calendar days, please provide us with your formal written comments regarding
the specific actions that DOT plans to take to implement our recommendations
along with timeframes for completion. We will consider the recommendations
unresolved until we receive the requested information.

We appreciate the courtesies and cooperation of Department of Transportation and
airlines’ and airports’ representatives during this audit. If you have any questions
concerning this report, please contact me at (202) 366-1959 or Todd Zinser,
Deputy Inspector General, at (202) 366-6767.


                                         #


cc: Chief of Staff
    Office of General Counsel
    Assistant Secretary for Aviation and International Affairs
    Acting FAA Administrator


                                         x
                               TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    Lack of a System-Wide Policy Contributed to
    American’s and JetBlue’s Long, On-Board Delays ........................... 1
    Airline and Airport Contingency Plans Are Still Not
    Adequate To Handle Long, On-Board Delays................................. 10
    Ongoing Actions for Mitigating Long, On-Board Delays.................. 13
    DOT, FAA, Airlines, and Airports Should Complete
    Actions on Outstanding Recommendations To Improve
    Airline Customer Service and Minimize Long, On-Board
    Delays ............................................................................................. 17

RECOMMENDATIONS........................................................................ 21

EXHIBIT A. OBJECTIVES, SCOPE AND
METHODOLOGY, AND RELATED AUDIT COVERAGE ................... 23

EXHIBIT B. SELECTED AIRLINES’ TERMS AND
CONDITIONS FOR HANDLING LONG, ON-BOARD
DELAYS............................................................................................... 28

EXHIBIT C. SELECTED AIRPORTS’ POLICIES FOR
ASSISTING IN LONG, ON-BOARD DELAYS .................................... 29

EXHIBIT D. STAKEHOLDERS VISITED OR
CONTACTED....................................................................................... 30

APPENDIX. DEPARTMENT COMMENTS ......................................... 31
                                                                                   1




FINDINGS
Airlines and airports continue to face challenges in mitigating extraordinary flight
disruptions such as long, on-board delays during extreme weather. Based on BTS
data, 659,988 flights were delayed in 2006 due to poor weather conditions
(9.2 percent of all commercial flights). Based on the first 7 months of 2007, the
number of flights delayed due to poor weather conditions increased by nearly
18 percent for the same period in 2006 and is on pace to exceed 2006 totals.

These delays occurred throughout the system and at many airlines, and, after the
severe long on-board delays that occurred last winter, the Secretary asked that we
assess airlines’ contingency planning for such situations. Overall, we found that:
(1) the on-board delays that passengers endured last winter were largely due to
airlines’ lack of a system-wide policy to minimize such delays; (2) airlines’ and
airports’ customer service contingency plans are still not adequate to handle these
occurrences; (3) airlines and airports have best practices and are moving forward
with other initiatives to help mitigate these delays; and (4) there are other actions
that airlines, airports, FAA, and DOT can undertake immediately to address such
situations.


Lack of a System-Wide Policy Contributed to American’s and
JetBlue’s Long, On-Board Delays
While weather was the primary contributor to the extraordinary flight disruptions
it was not the only factor in passengers being stranded on board aircraft for long
periods of time. We found that American and JetBlue experienced long, on-board
delays on December 29, 2006, and February 14, 2007, respectively, because they
both lacked a system-wide policy and procedure to minimize long, on-board
delays and off-load passengers within a certain period of time. American also did
not control the number of diverted flights to some airports, which overwhelmed
their operations. In Austin, some passengers experienced delays on the tarmac for
over 9 hours under American’s “monitor and evaluate” approach. Contrary to
some media reports, American did provide food, water, and tolerable restroom
facilities on the aircraft delayed in Austin; however, some passengers felt
American’s efforts were inadequate in that regard.

JetBlue was committed to its long-standing practice of not cancelling flights
whenever possible. As a result, its personnel at JFK airport in New York became
overwhelmed with the sheer number of arriving and departing aircraft on the
ground at the same time, with no gates available for deplaning passengers. Based
on weather forecasts for that day, both airlines were optimistic that the severe
weather would subside and that the delayed and diverted flights would be able to


Findings
                                                                                   2


depart, but the break in the weather never materialized. Since the incidents, both
airlines have taken actions to facilitate better planning when these incidents occur.

We also found that other airlines experienced flight disruptions on those two dates;
some were able to minimize the time passengers spent on-board aircraft while
others experienced similar on-board delays.

Severe Weather in Texas Caused American To Divert an Extraordinary
Number of Flights on December 29, Resulting in Thousands of
Passengers Experiencing Long Delays on Aircraft
On December 29, 2006, severe weather that generated massive lightning storms,
and a tornado warning in the Dallas-Fort Worth area caused American to cancel,
divert, or delay over 1,100 of its 1,600 (69 percent) scheduled flights into DFW,
disrupting holiday travel plans for over 13,000 passengers system-wide. American
diverted 130 flights; 124 flights were bound for DFW but had to be diverted to
24 nearby airports. The number of diversions on December 29 ranked as the
second largest in American’s history, the first being September 11, 2001.

Table 2 shows the seven airports that accepted the majority (63 percent) of the
DFW diversions on that day. Ultimately, out of the more than 314,000 passengers
American carried that day, 4,738 American passengers on 44 diverted flights
endured long, on-board delays of over 4 hours.

     Table 2. Seven Airports Accepting Most of American’s Diversions
               Airport                        Location         No. of Diversions
   San Antonio Regional             San Antonio, TX                   13
   Shreveport Regional              Shreveport, LA                    12
   Adams Field                      Little Rock, AR                   11
   Will Rogers World                Oklahoma City, OK                 11
   Austin-Bergstrom International   Austin, TX                        11
   Tulsa International              Tulsa, OK                         10
   Midland International            Midland, TX                       10
                Total                                                 78
  Source: OIG


American’s Lack of System-Wide Policy, Diversion Recovery Approach,
and Only Partial Adherence to Austin-Bergstrom Local Policy Caused
Long, On-Board Delays
American did not have a system-wide policy to minimize long, on-board delays or
an established time and system for deplaning passengers in the event of
extraordinary on-board (tarmac) delays. American also did not control the number
of diverted flights to some airports, which overwhelmed their operations. We
focused our review of the December 29 events on the 11 American flights that

Findings
                                                                                    3


were diverted to Austin, where some of the lengthiest on-board delays occurred.
We found that American did not fully adhere to its local policy to deplane
passengers upon request when a delayed or diverted flight is held for more than
2 hours.

Under its “monitor and evaluate” approach, American kept passengers on aircraft,
intending for the diverted flights to re-depart and reach their ultimate destinations,
but the severe weather conditions on that day prevented some of the diverted
flights from doing that. For American, when severe weather hit, the normal
practice was to divert aircraft to nearby airports not affected by the severe weather
and wait out the storms. American usually diverted aircraft to a nearby airport
without a plan to spread out its diversions. This practice heavily weighed down
operations at Austin. At two points during that day, American’s pilots on the
ground at Austin could not reach the local dispatcher to request a gate assignment
and ended up contacting FAA air traffic controller for assistance who was also
unsuccessful in contacting the local dispatcher.

American also failed to deplane passengers upon request in Austin when the
diverted flights were held for more than 2 hours. On 8 of the 11 diverted flights,
74 of the 979 passengers, most of which had final destinations of Austin or San
Antonio, were deplaned in Austin on December 29. However, several passengers
we interviewed from two of the eights flights stated that they had requested to
deplane but were not accommodated.

Table 3 below shows the number of hours that each flight was on the ground in
Austin. Some passengers were stranded on board for 6 hours or longer on 4 of the
11 diverted flights, with the longest on-board delay reaching over 9 hours. For
5 of the 11 diverted flights, with on-board delays of less than 2 and a half hours,
American’s “monitor and evaluate” approach paid off with those flights reaching
DFW the same day. The other six flights were not as fortunate, with passengers
remaining overnight in Austin and arriving at DFW the next day.




Findings
                                                                                     4



              Table 3. Length of On-Board Delay and Outcome of the
                           11 Diverted Flights to Austin
   Flight Origin City/Number   Length of On-Board            Flight Outcome
                                     Delay
 San Francisco, CA             9 hours 16 minutes   Diverted/remained overnight/
          Flight #1348                              arrived DFW next day
 Los Angeles, CA               7 hours 14 minutes   Cancelled/rebooked/arrived DFW
          Flight #2412                              next day
 Oakland, CA                   7 hours 6 minutes    Diverted/remained overnight/
          Flight #1008                              arrived DFW next day
 Fresno, CA                    6 hours 8 minutes    Diverted/remained overnight/
          Flight #534                               arrived DFW next day
 Seattle, WA                   2 hours 26 minutes   Diverted/arrived DFW same day
          Flight #2302
 Fresno, CA                    2 hours 16 minutes   Diverted/remained overnight/
          Flight #1372                              arrived DFW next day
 Vancouver, British Columbia   2 hours 8 minutes    Diverted/arrived DFW same day
          Flight #330
 Salt Lake City, UT            2 hours 4 minutes    Diverted/remained overnight/
          Flight #1074                              arrived DFW next day
 San Jose, CA                  1 hour 39 minutes    Diverted/arrived DFW same day
          Flight #1514
 Orange County, CA             1 hour 32 minutes    Diverted/arrived DFW same day
          Flight #592
 San Diego, CA                 1 hour 31 minutes    Diverted/arrived DFW same day
          Flight #1708
Source: OIG

At Austin-Bergstrom Airport, Some Passengers Were Dissatisfied With
American’s Attempts To Meet Their Needs During the Delays. We
interviewed passengers from 2 of the 11 diverted flights—flights 1348 and 534—
to obtain passenger feedback on the events of the day at the Austin airport.

Flight 1348 was scheduled to depart San Francisco at 6:05 a.m. Pacific Time, but,
due to mechanical problems (the passengers had to change gates and aircraft), the
flight did not depart until 7:10 a.m. Pacific Time, with 113 passengers on board.

While en route to DFW, the flight was diverted to Austin because of the severe
weather in the Dallas-Fort Worth area. Several passengers with Austin and San
Antonio as their final destinations were allowed to deplane and go to the airport
terminal via bus. The remaining passengers stayed on board expecting to reach
their final destinations or make their connecting flight at DFW.

At 10:05 p.m. Central Time, after sitting on the ground in Austin for 9 hours, with
a total on-board time of almost 13 hours, the passengers were finally deplaned and
remained overnight in Austin. Although American offered vouchers for hotel
accommodations and meals to passengers on flight 1348—36 hotel vouchers and


Findings
                                                                                     5


11 meal vouchers in total—not all passengers were accommodated. Those
passengers may not have been aware that American was offering the vouchers or
did not want to wait in line and found overnight accommodations on their own.
The flight continued to DFW the following day. Passengers on this flight were
later given flight vouchers valued up to $500 by American.

Passengers on flight 534 from Fresno, California, experienced similar
circumstances with a shorter on-board delay of 6 hours in Austin. Although the
passengers on both flights confirmed that snacks and beverages were served and
the restroom facilities were tolerable, passengers we interviewed felt that
American’s efforts to meet their essential needs during the delays were insufficient
given the length of the delays.

American Has Since Instituted a System-Wide Policy Designed To Avoid
Long, On-Board Delays
After the December 29 incident, American instituted a new policy designed to
prevent on-board delays from exceeding 4 hours and implemented an airborne
diversion distribution plan aimed at spreading out its diversions to more airports to
prevent overloading any given airport. American has also implemented decision
assistance technology designed to “automatically track and monitor delayed and
diverted flights and assist in creating a centralized approach for the prioritizing the
handling of such flights.”

American was able to demonstrate its new policy and plan during an incident that
occurred on February 24, 2007. On that day, American’s operations at DFW were
significantly affected by severe wind gusts of 37 to 47 knots (about 43 to 55 miles
per hour), causing the airport to close for over 5 hours. American diverted
76 flights bound for DFW to 32 airports, with no single airport handling more than
9 diversions. This is in contrast to December 29, 2006, when 124 flights were
diverted to 24 airports, with almost a third of them (7 airports) handling 10 or
more diversions.

While the February 24 disruption was the 7th worst diversion day in American’s
history, only 1 flight (34 passengers) experienced on-board delays of over 4 hours
versus the 44 flights (4,738 passengers) on December 29, 2006, and that was due
to an absence of U.S. Customs officials at the diversion airport. According to
American, the results of the February 24 experience indicate that its new 4-hour
policy and diversion plan worked well to avoid long, on-board delays during
extraordinary events.




Findings
                                                                                                                        6



JetBlue Ran Out of Gate Availability on February 14, Stranding Thousands
of Passengers on Aircraft for Extended Periods of Time
On February 14, 2007, a severe ice storm hit the northeastern United States,
causing JetBlue to eventually cancel 355 departures and arrivals, incur
6 diversions, and strand
passengers on 26 flights             Table 4. Breakdown of JetBlue’s
for over 4 hours, all at its       Long,  On-Board Arrival and Departure
                                                  Delays at JFK
JFK hub. See table 4 for a
breakdown of JetBlue’s        Number of On-Board Delays Over 1 hour             43
                              Number of On-Board Delays Over 4 hours            26
long, on-board delays at      Number of On-Board Delays Over 5 hours            21
JFK. Ultimately, 31,569       Number of Passengers That Endured
JetBlue passengers were       On-Board Delays Over 4 hours                   2,962
                              Average Time Delay for Arrivals (in minutes)     265
affected by cancellations,    Average Time Delay for Departures (in minutes)   298
delays, or diversions at Source: OIG
JFK between February 13
and 20.

Initial weather forecasts for JFK on February 14 predicted rain in the morning
with temperatures slightly higher than 32 degrees; the weather was dramatically
worse with freezing rain starting around 8:00 a.m. JetBlue’s flights continued to
arrive at the airport, although flights could not depart—only 2 of the first
13 scheduled morning flights departed—thereby causing gridlock on the airport
tarmac.

By 8:30 a.m., JetBlue ran out of gate space and asked FAA’s Air Traffic Control
to issue a ground stop 10 on all JetBlue flights headed for JFK. At 11:00 a.m.,
JetBlue requested that FAA issue a ground stop for all its flights system-wide
whether or not they were heading to JFK—an unprecedented request according to
FAA. This request was due to JetBlue’s operations control center being
overwhelmed with the JFK situation.

JetBlue officials stated that they contacted the Port Authority of New York and
New Jersey (the Port Authority) at 1:30 p.m., asking for buses to off-load
passengers from five aircraft stuck on the tarmac. By 3:00 p.m., the temperature
still remained below freezing and airport surfaces were covered with ice. Around
3:30 p.m., the Port Authority finally started to off-load passengers from the five
stranded flights.

By nightfall on February 14, JetBlue had 52 aircraft on the ground at JFK, instead
of the usual 22, and only 21 gates. JetBlue called other airlines, including foreign

10
     During an FAA ground stop, flights destined to the affected airport are held at their departure point for the duration
     of the ground stop.


Findings
                                                                                     7


airlines, to see about available gates, but no gates were available. The airport also
unsuccessfully tried to assist JetBlue in finding gates for its flights. Based on our
review of the events of that day, it appears that the airlines and airports were trying
to help each other; however, the severe weather hampered much movement of
aircraft on the airfield.

By the end of the day, JetBlue had cancelled 80 percent of its arrivals and
89 percent of its departures for that day. JetBlue had to cancel another 55 percent
of its scheduled arrivals and 50 percent of its departures on February 15. These
cancellations were related to both the weather and the fact that JetBlue did not
have crew and aircraft available.

JetBlue’s Lack of Policy and Reluctance To Cancel Flights Caused Long,
On-Board Delays
JetBlue did not have a policy to minimize long, on-board delays or an established
time and system for deplaning passengers in the event of extraordinary on-board
(tarmac) delays. In addition, JetBlue was committed to its long-standing practice
of not cancelling flights and had previously never dealt with extremely long,
on-board delays. JetBlue was optimistic based on weather forecasts that the
weather would break and eventually its flights would be able to depart. However,
the break in the weather never materialized on February 14, and JetBlue personnel
became overwhelmed with the sheer number of arriving and departing aircraft on
the ground at the same time, with no gates available for deplaning passengers on
flight arrivals.

Our review of the February 14 events focused on JetBlue flights that experienced
the worst tarmac delays at or traveling to JFK. As shown in table 5, 26 flights
were on the tarmac for 4 hours or more, with 14 flights exceeding 6 hours. Eight
of the flights were arrivals, with the worst on-board delay lasting over 9 hours.
The remaining 18 were departing flights, with the worst on-board delay exceeding
10 hours. Eight of the departing flights eventually took off but the other 10 were
finally cancelled.




Findings
                                                                                     8



     Table 5. Length and Outcome of JetBlue’s Long, On-Board Delays
                     for Flights at or Traveling to JFK
      Flight Origin City        Length of Delay             Flight Outcome
 JFK Arrivals
 Ft. Myers, FL                     9+ hours         Deplaned
 Nashville, TN                     8+ hours         Deplaned
 Houston-Hobby, TX                 7+ hours         Deplaned
 Burbank, CA                     Almost 6 hours     Diverted/ arrived JFK same day
 Austin, TX                      Almost 6 hours     Deplaned
 Orlando, FL                       5 ¾ hours        Deplaned
 Long Beach, CA                     5 hours         Diverted/ arrived JFK same day
 Oakland, CA                       4 ¾ hours        Diverted/ arrived JFK same day
    Flight Destination City
 JFK Departures
 Aruba                            10 ½ hours        Cancelled
 Burbank, CA                        9 hours         Cancelled
 Cancun, Mexico                  Nearly 8 hours     Cancelled
 Syracuse, NY                      7 ½ hours        Cancelled
 Houston-Hobby, TX                 7 ¼ hours        Departed
 Buffalo, NY                       7 ¼ hours        Cancelled
 Boston, MA                         7 hours         Cancelled
 Orlando, FL                     Nearly 7 hours     Cancelled
 Phoenix, AZ                       6 ¾ hours        Cancelled
 Burbank, CA                       6 ¼ hours        Departed
 Ft. Lauderdale, FL                6 ¼ hours        Departed
 Tampa, FL                         5 ½ hours        Departed
 New Orleans, LA                   5 ½ hours        Cancelled
 Burbank, CA                       5 ¼ hours        Departed
 Buffalo, NY                        5 hours         Departed
 Seattle, WA                       4 ¾ hours        Departed
 Long Beach, CA                    4 ½ hours        Cancelled
 Phoenix, AZ                        4 hours         Departed
Source: OIG

JetBlue did not recover from the effects of February 14 until about 5 days later.
While only one runway was open on both February 14 and 15, capacity issues
were not a problem because so many of the other air carriers had pre-cancelled
their flights. The downstream effect of the February 14 event resulted in JetBlue
cancelling 1,204 flights through February 20, or 44 percent of its operations.
JetBlue provided passengers with over $11 million in refunds for this incident.

JetBlue Has Since Instituted a System-Wide Policy Designed To Avoid
Long, On-Board Delays
After the February 14 event, JetBlue set a 5-hour time limit for deplaning
passengers delayed on the ground and established procedures to monitor delayed
flights. Since then, JetBlue has demonstrated on at least one occasion that it is not


Findings
                                                                                       9


going to allow passengers to sit on aircraft for long periods of time during massive
cancellations. For example, during the March 16, 2007, ice storm, JetBlue
cancelled over 200 flights scheduled to fly in and out of JFK.

Also, just a week after the February 14 incident (February 20), and before our
March 2007 review, JetBlue published its own customer bill of rights. JetBlue
plans to offer compensation in the form of vouchers for flight disruptions, such as
cancellations.

JetBlue Was Not the Only Airline To Experience Flight Disruptions on
February 14, 2007
While JetBlue received the most publicity for stranding its passengers on the
tarmac at JFK on February 14, the weather also affected other airlines there—
nearly 97 percent of all scheduled flights at JFK were either delayed, cancelled, or
diverted, with over 83 percent of those flights cancelled.

Delta had more flights delayed at JFK than JetBlue on February 14, with
15 arriving flights and 39 departing flights delayed over 1 hour. American had
15 arrival delays and 8 departure delays of over 1 hour. However, the average
delay length was worse for JetBlue, as shown in table 6.

              Table 6. Average On-Board Delays on February 14, 2007,
                       at JFK for JetBlue, Delta, and American
      Airline        No. of Flights   Average On     Longest Delay    No. of Flights
                       Delayed        Board Delay                      with Delays
                      > 1 Hour                                          > 3 hours
 Arrivals:
  JetBlue                 14           4 ½ hours        9 hours             9
  Delta                   15           2 ½ hours       4 ¼ hours            6
  American                15           1 ½ hours       2 ¾ hours            0
 Departures:
  JetBlue                 29           5 ¾ hours      10 ¼ hours           20
  Delta                   39           3 ½ hours       7 ¼ hours           19
  American                8            1 ½ hours       4 ¼ hours            0
Source: OIG

All of the New York area airports were dramatically affected on
February 14, 2007. New York’s LaGuardia Airport had 92 percent of its flights
either delayed, cancelled, or diverted, and Newark International had 87 percent.
While our audit did not examine operations at those airports, it is very likely that
passengers on flights operating at these airports experienced long, on-board
delays.




Findings
                                                                                  10


Airline and Airport Contingency Plans Are Still Not Adequate To
Handle Long, On-Board Delays
In response to the Secretary’s February 2007 request, we examined airlines’
customer service commitments, contracts of carriage, policies, and contingency
plans dealing with extended ground delays aboard aircraft. We also reviewed
airports’ contingency plans. We found that both air carriers’ and airports’
contingency plans are limited in addressing long, on-board delays. Overall, we
found that there has been little improvement from what we reported in 2001—that
only a few airlines’ contingency plans specified in any detail the efforts planned to
get passengers off the aircraft when delayed for extended periods and that airlines
had not clearly and consistently defined terms in the1999 Commitment provision.

In 2001, we examined individual airlines’ customer service plans in order to
evaluate the effectiveness of the Commitment provision, which states that airlines
will:

   (1) make every reasonable effort to provide food, water, restroom facilities,
   and access to medical treatment for passengers aboard an aircraft that is on the
   ground for an extended period of time without access to the terminal, as
   consistent with passenger and employee safety and security concerns and

   (2) prepare contingency plans to address such circumstances and will work
   with carriers and the airport to share facilities and make gates available in an
   emergency.

However, as we noted in our 2001 report, the airlines had not clearly and
consistently defined terms in the Commitment provision such as “an extended
period of time.” We also noted that only a few airlines’ contingency plans specify
in any detail the efforts that will be made to get passengers off the aircraft when
delayed for extended periods, either before departure or after arrival. We
recommended that the airlines:

 • clarify, in their customer service plans, what is meant by an “extended period
   of time” and “emergency,” so that passengers will know what they can expect
   during extended on-aircraft delays.

 • ensure that comprehensive customer service contingency plans specify the
   efforts that will be made to get passengers off the aircraft when delayed for
   extended periods, either before departure or after arrival.

In response to our 2001 report recommendations, the airlines agreed to:

 • clarify the terminology used in their customer service plans for extended
   delays.


Findings
                                                                                   11


 • establish a task force to coordinate and develop contingency plans with local
   airports and FAA to deal with lengthy delays.

However, our 2007 review found that airlines still have neither clearly and
consistently defined certain terminology in their customer service plans (such as
what constitutes an “extended period of time” or a “long, on-board delay”) nor
established a viable task force. Our opinion was then, as it is now, that this should
be a top-priority area for the airlines when implementing their contingency plans,
especially with long, on-board delays on the rise from 2006 to 2007—particularly
those exceeding 4 hours.

Not All Airlines Have Established a Time Limit for On-Board Delays or
Clearly and Consistently Defined Certain Terminology
Few airlines have stated a specific time before efforts will be made to get
passengers off the aircraft during long, on-board delays in their customer service
commitments, contracts of carriage, policies, and contingency plans that deal with
these delays. Prior to the American and JetBlue incidents, only 4 of the 13 airlines
reviewed had an established time limit on the duration of tarmac delays (see
exhibit B). After these incidents, eight airlines now have a set time limit on delay
durations before deplaning passengers but five still do not. Also, seven airlines
have not defined either what constitutes an extended period of time for meeting
passengers’ essential needs or what constitutes a long, on-board delay before
deplaning passengers.

In addition,

 • of the airlines that have defined “an extended period of time,” the trigger
   thresholds for meeting passengers’ essential needs vary from 1 to 3 hours. We
   think it is unlikely that passengers’ definition of an extended period of time
   will vary depending upon which airline they are flying. A consistent policy
   across the airlines would be helpful to passengers.

 • of the airlines that have defined what constitutes a “long, on-board delay,” the
   trigger thresholds for deplaning passengers vary from 1 to 5 hours.

All airlines need to specify in detail the efforts that will be made to get passengers
off the aircraft when delayed for extended periods, either before departure or after
arrival. Although the airlines formed a task force, the effort never materialized as
priorities shifted after September 11, 2001. Our testimony before the House
Subcommittee on Aviation in April 2007 recommended that the task force be
reconvened, and, to date, there has been no action to do so.




Findings
                                                                                   12


Airports’ Contingency Plans Addressing Long, On-Board Delays Are Also
Limited
In addition to examining airline contingency plans for mitigating long, on-board
delays as requested, we also examined contingency plans from selected major
airports nationwide. We requested contingency plans from 13 airports, including
12 hub airports (see exhibit C). We received plans or responses from all
13 airports and found the following:

 • Only two airports have a process for monitoring and mitigating long, on-board
   delays that involves contacting the airline to request a plan of action after an
   aircraft has remained for 2 hours on the tarmac.

 • Airports intervene only upon an airline’s request primarily because they do not
   have the authority to interfere with a carrier’s operations during long, on-board
   delays.

 • Most plans address assisting airlines, when assistance is requested, during
   long, on-board delays. This includes providing gates to deplane passengers or,
   when a gate is not available, deplaning passengers using mobile air stairs,
   loading them onto buses, and returning to the terminal.

Based on discussions with airline personnel, it appears that in the recent events
that stranded passengers for extraordinarily long periods there was not a
coordinated effort by the airlines, airport operators, and FAA to deal with such
events.

In our opinion, airport operators need to become more involved in contingency
planning for extraordinary flight disruptions, including long, on-board delays
during extreme weather or any other disruptive event. Airports are public
agencies heavily supported by Federal funding to provide better service to the
public. As recipients of Federal funds for airport improvement projects, airports
have an obligation to increase airport efficiency, decrease delays, and transport
passengers in the most efficient manner.

Also, air travelers can still choose which connecting airport to fly through to get to
their final destinations or take direct flights to avoid chronically delayed airports
all together. If certain airports continue to maintain a reputation for long flight
and tarmac delays, passengers may simply choose other airports whenever
possible.




Findings
                                                                                                                     13


In our view, large- and medium-hub airport 11 operators should establish a process
for monitoring and mitigating long, on-board delays that involves contacting the
airline to request a plan of action after an aircraft has remained for 2 hours on the
tarmac. As part of the plan, the airport operators need to work with the airlines to
ensure that the airlines’ deplaning policies are adhered to. Absent any airline
policy, the airport operators should work with airlines to establish policies for
deplaning passengers and ensure that these policies are adhered to.


Ongoing Actions for Mitigating Long, On-Board Delays
Secretary Peters asked that we highlight some of the best practices we found that
could help in dealing with long, on-board delays. During our review of selected
airlines and airports, we found several practices by some airlines and airports to
mitigate the effects of these occurrences. Also, after our review began, some
airports moved forward with other initiatives meant to assist the airlines in dealing
with long, on-board delays. In addition, ATA announced a new initiative for
dealing with such situations. FAA also expanded an existing initiative this
summer to other parts of the National Airspace System to reduce the amount of
time that flights sit on tarmacs waiting to depart. We have included these actions
along with best practices identified during our review to provide an overall picture
of the actions being taken across the industry that relate to the Secretary’s
concerns.

Airlines’ and Airports’ Best Practices and Ongoing Initiatives
Best Practices: The best practices we identified during our review include the
following:

     • Setting the maximum amount of time that passengers will remain on-board
       aircraft before deplaning them. An airline’s local contingency planning at one
       airport is to do everything reasonably possible to ensure that passengers do not
       remain on board aircraft for more than 1 hour.

     • “Intelligent cancelling”—cancelling flights most likely to be affected by the
       weather event without being too optimistic or pessimistic. Pre-cancelling
       flights before the passengers leave home keeps them away from the airport,
       thus reducing congestion. There are trade-offs when implementing this
       practice—passengers avoid experiencing long, on-board delays, but they need
       to be re-accommodated on later flights, optimally that same day. However,

11
     FAA defines (1) large hubs as those airports that each account for at least 1 percent of the total U.S. passenger
     enplanements and (2) medium hubs as those airports that each account for between .025 percent and 1 percent of the
     total passenger enplanements. Large-hub airports (30 in total) account for 69 percent of all passenger enplanements,
     while medium-hub airports (37 in total) account for 20 percent of all enplanements.


Findings
                                                                                      14


   reduced capacity and higher load factors can result in increased passenger
   inconvenience and dissatisfaction with customer service. With more seats
   filled, air carriers have fewer options to accommodate passengers from
   cancelled flights.

 • Keeping gate space available for off-loading passengers in times of irregular
   operations. This could be done by the airport authority or the carriers. The gate
   would be available for arriving aircraft and solely for deplaning passengers.

 • Implementing programs that provide volunteer employees from throughout the
   airline’s system that are flown or driven to the destination needing assistance.
   These volunteers (i.e., customer service agents) act as additional help during
   irregular operations. The goal of the agents would be to separate and service
   passengers needing to be rebooked from those passengers arriving at the
   airport already ticketed for on-time flights or non-cancelled, operating flights.

 • Implementing flexible staffing arrangements and periodic duty rotations to
   meet the challenges during irregular operations. For example, certain non-
   customer service employees have been cross-trained to assist in re-booking
   passengers whose flights have been cancelled.

 • Holding teleconferences before a known weather event (e.g., winter storm,
   hurricane, tropical depression, etc.) with potentially affected airports’ general
   managers. In addition to asking for recommendations from the general
   managers, they discuss the status of snow removal equipment, liquid de-icing
   amounts/availability, staffing, and possible scheduled operation (aircraft and
   passenger) reductions. Similar meetings are already held between FAA and
   airlines.

 • Using the Aircraft Communication Addressing and Reporting System
   (equipped on most commercial aircraft) to send a message to the airline’s
   Operations Control Center notifying the Center that the aircraft has been off
   the gate for more than 3 hours without departing.

 • Constantly monitoring aircraft on the tarmac; in cases of aircraft remaining for
   more than 2 hours, airport staff will contact the appropriate airline manager to
   coordinate the aircraft’s return to a gate. If necessary, airport staff will assist in
   deplaning an aircraft and provide an escort, buses, and mobile stairs. Finally,
   staff will ensure that airport services (e.g., concessions, security, and ground
   transportation) remain open during an irregular operation.

The best practices we identified during our review are not all-inclusive, and the
airlines or airports should consider incorporating them into their ongoing



Findings
                                                                                 15


operations, especially the best practice of setting the maximum amount of time
that passengers will remain on board aircraft before deplaning.

However, in our opinion, a more comprehensive national plan of action is needed
to prevent and mitigate long, on-board delays and should involve collaboration
among airlines, airports, FAA, and DOT. Therefore, a national task force of
representatives from each of these groups should be established to develop and
coordinate contingency plans to deal with lengthy delays. Although the airlines
formed a task force in response to our 2001 report recommendations, the effort
never materialized as priorities shifted after September 11, 2001. Now is the time
to reconvene the task force.

Airports’ Ongoing Initiatives To Address Long, On-Board Delays: During
our review, two major airport operators put forth initiatives to address long, on-
board delays. The Port Authority of New York and New Jersey set up a task force
to find ways to reduce flight delays at the region’s three main airports. The Port
Authority; which operates JFK, LaGuardia, and Newark Liberty International
Airports; leads the group. The task force includes airline executives and Federal,
state, and city government officials.

The task force convened its first meeting July 18, 2007, with 42 airline executives
and Federal, state, and city government officials attending, including then FAA
Administrator Blakey. The task force met a second time on September 18, and
another meeting is scheduled for November 2007; conference calls are planned to
occur periodically. The task force plans to issue a report by the end of 2007.

The task force is addressing two main areas—technical issues and customer
service. In the technical area, the Port Authority and FAA are working on
procedural improvements, such as more efficient use of the runways at JFK. Also,
work is being delegated to the airlines that are looking into ways that airports
could be changed to reduce flight delays. In the customer service area, the focus is
on best methods for getting passengers off aircraft and enhancements for reducing
the amount of time they are kept on aircraft.

Hartsfield-Jackson Atlanta International Airport is moving forward with a plan to
cut gate delays for arriving passengers by busing people from planes directly to
concourses when airline gates are full. The city of Atlanta, which operates the
airport, approved a $2.5 million proposal for 4 new buses that can transport about
80 passengers and their carry-on luggage. The plan also includes sets of mobile
stairways that allow passengers to leave planes and another vehicle to help
disabled passengers. Airlines requesting the service will reimburse the city for the
use of the buses.




Findings
                                                                                  16


It is encouraging to see that some airport operators are becoming more involved in
mitigating long, on-board delays. However, as passenger traffic continues to
grow, airports will need to become more proactive in dealing with long, on-board
delays, especially those airports with limited airfield or gate capacity. Airports
will also need to proactively deal with in-terminal delays when multiple flights are
cancelled and passengers are stranded in the gate areas where terminal capacity
could be limited.

ATA Initiative To Address Long, On-Board Delays
On February 22, 2007, ATA announced an initiative for dealing with long, on-
board delays and proposed the following course of action:

 • Each airline will continue to review and update its policies to ensure the safety,
   security, and comfort of customers.

 • Each airline will work with FAA to allow long-delayed flights to return to
   terminals in order to off-load passengers who choose to disembark without
   losing that flight’s position in the departure sequence.

 • ATA will ask the Department to review airline and airport emergency
   contingency plans to ensure that the plans effectively address weather
   emergencies in a coordinated manner and provide passengers with essential
   needs (i.e., food, water, lavatory facilities, and medical services).

 • ATA will ask the Department to promptly convene a meeting of air carrier,
   airport, and FAA representatives to discuss procedures to better respond to
   weather emergencies that result in lengthy flight delays.

While we understand the current pressures that ATA and its member airlines face
in maintaining profitability, we are concerned that the actions proposed merely
shift responsibility from ATA to the Department. We agree that the Department
must be an active partner, but ATA’s proposed course of action is not significantly
different than what the airlines agreed to do in response to our 2001
recommendations, such as “to establish a task force to coordinate and develop
contingency plans with local airports and FAA to deal with lengthy delays.”

FAA’s Expanded Program To Reduce Flight Delays
FAA is also taking action to minimize delays; the Agency expanded an existing
initiative this summer to other parts of the National Airspace System to reduce the
amount of time that flights sit on tarmacs waiting to depart. This initiative, known
as the Airspace Flow Program, gives FAA and the airlines the capability to
maximize the overall use of the National Airspace System while minimizing


Findings
                                                                                  17


delays and congestion. These efforts, which are managed by FAA’s Command
Center, do not create additional capacity but limit the negative effects of bad
weather. For instance, it gives airlines the option of either accepting delays for
flights scheduled to fly through storms or flying longer routes to safely maneuver
around them.

The Agency successfully launched the program last year at seven locations in the
Northeast. According to FAA, on bad weather days at major airports in the
region, delays fell by 9 percent compared to the year before. Cost savings for the
airlines and the flying public from the program were estimated to be $100 million
annually. The number of Airspace Flow Program locations—chosen for their
combination of heavy traffic and frequent bad weather—was expanded from 7 to
18. The additional locations will ease delays for passengers flying through the
southern and midwestern United States and for those on transcontinental flights.

In the past, severe storms often forced FAA to ground flights at affected airports.
This “penalized” flights whose scheduled paths would have taken them around the
storm had they not been grounded with the flights directly affected by the storms.
The Airspace Flow Program allows FAA to manage traffic fairly and efficiently
by identifying only those flights scheduled to fly through storms and giving them
estimated departure times. Airspace Flow Programs will also be used in
conditions not related to weather, such as severe congestion near major cities.

In another development, the Agency rolled out a new software program that is
intended to ensure that airports affected by bad weather receive the maximum
number of flights that can safely fly to them. During storms, arrival slots often
open up due to delayed or cancelled flights. The new software program, called
Adaptive Compression, would automatically fill those slots with the next available
flight. The software tool, which was launched in March 2007, is intended to
reduce delays, saving time and money for the airlines and passengers.

While it is too soon to evaluate the effectiveness of these ongoing initiatives, they
all have merit and, if properly executed, should help in mitigating long, on-board
delays in the immediate term.

DOT, FAA, Airlines, and Airports Should Complete Actions on
Outstanding Recommendations To Improve Airline Customer Service
and Minimize Long, On-Board Delays
Given the events of this past winter, DOT should take a more active role in
overseeing customer service issues, and there are actions that the Department, the
airlines, airports, and FAA can undertake immediately to do so. Many of the
actions are not new and date back to recommendations in our 2001 report, which
were directed at delay and cancellation problems—key drivers of customer


Findings
                                                                                                                       18


dissatisfaction with airlines. To improve the accountability, enforcement, and
protection afforded to air travelers we recommend the following.

Actions Needed From the Airlines and Airports
     • Clarify delay terminology and set limits for delay durations before
       deplaning passengers. Those airlines who have not already done so must:
       (1) define what constitutes an extended period of time for meeting passengers’
       essential needs, (2) set a time limit on long, on-board delay durations before
       deplaning passengers, and (3) incorporate such policies in their contracts of
       carriage and post them on their Internet site. We recommended most of these
       actions in 2001, and the airlines agreed and stated plans to implement them.

       We realize that certain procedures may need to be tailored to individual airlines
       and airports and will heavily depend on the situation (e.g., setting a time limit
       on delay durations before returning to a gate or, when a gate is not available,
       deplaning passengers using mobile air stairs, loading them onto buses, and
       returning to the terminal). There may be situations or conditions that make it
       difficult to bring passengers back to a gate during long, on-board delays. Some
       of the main obstacles to this are the physical layouts of the airports. Some
       airports, by virtue of their design and modern facilities, may be able to safely
       accommodate aircraft movement. Other airports, because of their layout
       design (narrow taxiways), may not be able to accommodate aircraft moving
       about and off-loading passengers safely.

       Also, weather factors can limit off-loading options. For example, deplaning
       passengers onto metal mobile stairs is not feasible during a lightning storm.
       Likewise, it may not be necessary to deplane passengers at JFK after 2 hours,
       since typical Friday afternoon delays normally last that long. However, a 2-
       hour, on-board delay at Austin might require deplaning activities to commence.
       Airlines and airports need to work together to determine the various situations
       that can occur and devise plans for handling those occurrences.

     • Establish specific targets for reducing chronically delayed or cancelled
       flights. 12 In our 2001 report, we recommended that the airlines establish in the
       Commitment and their Customer Service Plans targets for reducing the number
       of flights chronically delayed (i.e., 30 minutes or longer) or cancelled
       40 percent or more of the time.

       In response to our recommendation, the airlines stated they were “willing to
       accept the challenge of reducing chronically delayed or cancelled flights, for

12
     We define chronically delayed or cancelled flights as those flights delayed 30 minutes or longer or cancelled at least
     40 percent of the time during a single month.


Findings
                                                                                                        19


       factors we can control, in order to relieve unneeded and unwanted passenger
       frustration.” However, there were no actions identified on how or when the
       airlines would go about implementing this challenge.                     After
       September 11, 2001, their focus shifted, but the problem has returned and must
       be resolved.

     • Disclose on-time flight performance. We recommended in our 2001 report
       that the airlines disclose to customers at the time of booking, without being
       asked, the prior month’s on-time performance rate for those flights that have
       been delayed (i.e., 30 minutes or longer) or cancelled 40 percent or more of the
       time. Currently, the airlines are required to disclose on-time performance only
       upon request from the customer.
       The ATA airlines disagreed with this recommendation and, as an alternative,
       agreed to make on-time performance data accessible to customers on the
       airlines’ Internet sites, on a link to the BTS Internet site, or through toll-free
       telephone reservation systems.
       However, in our 2006 review, 13 only 5 of the 16 airlines we reviewed made
       on-time performance data available on their Internet sites. Given the ease of
       availability of this information to the airlines, we continue to believe that
       airlines should post on-time flight performance information on their Internet
       sites and make it available through their telephone reservation systems without
       being prompted.

     • Resume efforts to self-audit their customer service plans. We also
       recommended in 2001 that the airlines establish quality assurance and
       performance measurement systems and conduct internal audits to measure
       compliance with the Commitment provisions and customer service plans. The
       ATA airlines agreed with the recommendation.

       In June 2001, we confirmed that 12 of the 14 ATA airlines that were
       signatories to the Commitment had established and implemented their quality
       assurance and performance measurement systems. In our 2006 review,
       however, we found that the quality assurance and performance measurement
       systems were being implemented at just five of the ATA airlines. The other
       ATA airlines had either discontinued their systems after September 11, 2001,
       or combined them with operations or financial performance reviews where the
       Commitment provisions were overshadowed by those issues.

       The key to the success of the airlines’ new policies designed to prevent
       on-board delays is for each airline to (1) have a credible tracking system for

13
     OIG Report Number AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
     Provisions of the Airline Customer Service Commitment,” November 21, 2006.


Findings
                                                                                  20


  compliance with its new policy and with all other Commitment provisions and
  (2) implement its customer service plan, reinforcing it with performance goals
  and measures.

  These systems and audit procedures will also help DOT to more efficiently
  review the airlines’ compliance with the Commitment provisions and ensure
  that airlines comply with their policies governing long, on-board delays,
  especially in the event that health and safety hazards arise from such delays.

 • Reconvene the task force. In response to our 2001 report recommendations,
   the airlines agreed to establish a task force of representatives from airlines,
   airports, and FAA to develop and coordinate contingency plans to deal with
   lengthy delays, such as working with carriers and the airports to share facilities
   and make gates available in an emergency. Although the airlines formed a task
   force, the effort never materialized because their priorities shifted after
   September 11, 2001. In our testimony before the House Subcommittee on
   Aviation in April 2007, we recommended that the task force be reconvened, to
   date, there still has been no action to do so. Now is the time for airlines to
   reconvene a national task force and develop and coordinate contingency plans
   with local airports and FAA to deal with lengthy delays.

 • Implement processes for monitoring lengthy delays.                  Large- and
   medium-hub airport operators should establish a process for monitoring and
   mitigating long, on-board delays that involves contacting the airline to request
   a plan of action after an aircraft has remained on the tarmac for 2 hours. As
   part of the plan, the airport operators need to work with the airlines to ensure
   that the airlines’ deplaning policies are adhered to. Absent any airline policy,
   the airports should establish their own policies for deplaning passengers.

Actions Needed From DOT
 • Implement the necessary changes in the airlines’ on-time performance
   reporting to capture all long, on board delays. Under 14 Code of Federal
   Regulations Part 234, “Airline Service Quality Performance Reports,” air
   carriers that account for at least 1 percent of domestic scheduled passenger
   revenues must submit monthly reports to the BTS that include, among other
   things, the number of (1) flights that departed and arrived on time by airport;
   (2) flights delayed, cancelled, and diverted; and (3) flights delayed or cancelled
   by cause.

  However, the delay statistics (see statistics reflected in table 1 on page v) do
  not accurately portray the magnitude of long, on-board delays because carriers
  are not required to report a delay if the flight is cancelled or diverted. For
  example, if a flight taxies out, sits for hours, and then taxies back in and is


Findings
                                                                                 21


   cancelled, the cancellation is recorded but the delay is not. Therefore, there is
   no record of how long a flight remained at the gate or sat on the tarmac before
   it was cancelled. This was the case with some JetBlue flights at JFK on
   February 14, 2007. Also, if a flight is diverted to an airport other than the
   destination airport and sits on the tarmac for an extended period of time, the
   flight is not recorded in delay statistics. This was the case with American’s
   flights that were diverted to Austin on December 29, 2006.

   BTS is looking into whether changes are needed in how the airlines record
   long, on-board delays. BTS should make this a priority and implement the
   necessary changes in the airlines’ on-time performance reporting requirements
   to capture all events resulting in long, on-board delays, such as flight
   diversions and cancellations.

 • Conduct incident investigations involving long, on-board delays. Also,
   based on the results of this review, the Department’s Office of General
   Counsel—in collaboration with FAA, airlines, and airports—should review
   incidents involving long, on-board ground delays and their causes; identify
   trends and patterns of such events; and implement workable solutions for
   mitigating extraordinary flight disruptions.

 • Oversee the airlines’ policies for dealing with long, on-board delays. The
   Office of Aviation Enforcement and Proceedings should ensure that airlines
   comply with their policies governing long, on-board delays, especially in the
   event that health and safety hazards arise from such delays, and advise
   Congress if the airlines retreat from the Commitment provisions or dilute the
   language in the current contracts of carriage.


RECOMMENDATIONS
In order to improve the accountability, enforcement, and the protection afforded to
air travelers, we are making the following recommendations to the Secretary of
Transportation:

 1. Require each certificated and commuter airline that provides domestic
    scheduled service using any aircraft with more than 30 passenger seats to
    (a) define what constitutes an extended period of time; (b) set a time limit on
    delay durations before deplaning passengers; and (c) incorporate such
    policies in its contract of carriage and post on its Internet site.

 2. Require all airlines that report on-time performance to DOT pursuant to
    14 CFR Part 234 to establish specific targets for reducing chronically delayed
    or cancelled flights.


Recommendations
                                                                                  22


 3. Require all airlines that report on-time performance to DOT pursuant to
    14 CFR Part 234 to post on-time flight performance information on their
    Internet sites.

 4. Require all airlines that report on-time performance to DOT pursuant to
    14 CFR Part 234 to disclose to customers at the time of booking, without
    being asked, the prior month’s on-time performance rate for those flights that
    have been delayed (i.e., for 30 minutes or longer) or cancelled 40 percent or
    more of the time.

 5. Require each certificated and commuter airline that provides domestic
    scheduled service using any aircraft with more than 30 passenger seats to
    self-audit their customer service plans.

 6. Require large- and medium-hub airport operators to establish and implement
    a process for monitoring and mitigating long, on-board delays that involves
    contacting the airline to request a plan of action after an aircraft has remained
    for 2 hours on the tarmac.

 7. Establish a national task force of airlines, airports, and FAA to coordinate
    and develop contingency plans to deal with lengthy delays, such as working
    with carriers and the airport to share facilities and make gates available in an
    emergency.

 8. Require BTS to implement the necessary changes in the airlines’ on-time
    performance reporting requirements to capture all events resulting in long,
    on-board delays, such as flight diversions.

 9. In collaboration with FAA, airlines, and airports, review incidents involving
    long, on-board ground delays and their causes; identify trends and patterns of
    such events; and implement workable solutions for mitigating extraordinary
    flight disruptions.

 10. Direct the Office of Aviation Enforcement and Proceedings to ensure that
     airlines comply with their public policies governing long, on-board delays,
     especially in the event that health and safety hazards arise from such delays,
     and advise Congress if the airlines retreat from such policies.




Recommendations
                                                                                  23




EXHIBIT A. OBJECTIVES, SCOPE AND METHODOLOGY, AND
RELATED AUDIT COVERAGE

Objectives
On February 26, 2007, Secretary Peters requested that the Office of Inspector
General (OIG) examine the airlines’ customer service plans, contracts of carriage,
and internal policies dealing with long, on-board delays and the specific incidents
involving American Airlines and JetBlue Airways when passengers were stranded
on board aircraft for extended periods of time. She also requested that we provide
recommendations on what actions should be taken to prevent a recurrence of such
events.

Consistent with Secretary Peter’s request, we (1) looked into the specific situations
involving American and JetBlue, in light of whatever specific commitment these
carriers made concerning policies and practices for meeting customers’ essential
needs during long on-board delays; (2) examined the airlines’ customer service
commitments, contracts of carriage, and policies dealing with extended ground
delays aboard aircraft; and (3) provided recommendations as to what, if anything,
the airlines, airports, or the Government, including the Department, might do to
prevent a recurrence of such events, highlighting any “best practices” discovered
by the industry in dealing with such situations.


Scope and Methodology
We conducted this review between March 2007 and September 2007. The audit
was conducted in accordance with Government Auditing Standards prescribed by
the Comptroller General of the United States and included such tests as we
considered necessary to provide reasonable assurance of detecting abuse or illegal
acts. In conducting this review, we relied on computer-generated data from the
airlines and did not access the general and application controls for each of the
automated systems.

To examine the airlines’ customer service commitments, contracts of carriage, and
policies dealing with extended ground delays aboard aircraft we obtained the
customer service plans and contracts of carriage from the Air Transport
Association member airlines. We reviewed these documents in particular for
references related to the airlines’ handling of long on-board delays and essential
needs of the passengers. We also obtained and reviewed 13 airports’ policies
dealing with extended ground delays from selected Airports Council International-
North America member airports. We reviewed these documents in particular for


Exhibit A. Objectives, Scope and Methodology, and Related Audit
Coverage
                                                                               24


references related to the airports monitoring and assisting in handling long,
on-board delays.

To evaluate the specific situations involving American and JetBlue, we visited
JetBlue Airways’ headquarters in New York (including JFK) and American
Airlines’ in Texas—specifically, Dallas-Fort Worth International and
Austin-Bergstrom Airports. We reviewed information and data from American
and JetBlue regarding the events of December 29, 2006, and February 14, 2007.
We also received information from other carriers providing service from Dallas-
Fort Worth, Austin, and New York airports and met with officials from FAA air
traffic control and those three airports.


Related Audit and Testimony Coverage
In the past 7 years, OIG has performed a number of customer service-related
audits and testimonies. We issued our most recent update in April 2007.

Report AV-2000-102, “Interim Report on Airline Customer Service
Commitment,” June 27, 2000. The June 2000 report provided the 6-month
progress of the airlines in implementing their customer service plans. The Interim
Report provided the preliminary results and observations on the airlines’ systems
to measure performance against their plans, discussed the airlines’ contracts of
carriage in relation to their plans, provided observations of the Department’s
capacity to enforce consumer protection rights, and discussed the importance of
customer service in the marketplace.

Report AV-2001-020, “Final Report on Airline Customer Service
Commitment,” February 12, 2001 and Testimony CC-2001-090, “Airline
Customer Service Commitment,” on February 13, 2001. In this final report
and testimony, we reported that the airlines were making progress toward meeting
their Customer Service Commitment and that the Commitment has been a plus for
air travelers. Notwithstanding progress by the airlines toward meeting their
Commitment, we found significant shortfalls in reliable and timely communication
with passengers by the Airlines about flight delays and cancellations. Further, we
found the airlines’ Commitment does not directly address the most deep-seated,
underlying cause of customer dissatisfaction—flight delays and cancellations, and
what the airlines plan to do about them in the areas under their control in the
immediate term.

Testimony CC-2001-217, “Status Report on Airline Customer Service,”
June 20, 2001. In June 2001, the OIG presented testimony before the House
Transportation and Infrastructure Committee, Subcommittee on Aviation
regarding progress made by 14 airlines in improving customer service since our
2001 report. We reported that most airlines had: (1) incorporated the original
Exhibit A. Objectives, Scope and Methodology, and Related Audit
Coverage
                                                                                 25


Airline Customer Service Commitment into their contracts of carriage, (2)
established performance measurement systems, and (3) petitioned the Department
to revise regulations for reporting mishandled baggage and compensating
passengers involuntarily bumped from a flight. The airlines also formed a task
force to develop plans for accommodating passengers delayed overnight, ensuring
airport display monitors are accurate, and providing for passengers’ needs during
long on-board delays. There were several important recommendations that the
airlines did not address, such as petitioning the Department to require that each
airline with a frequent flyer program make available to the public a more
comprehensive reporting of frequent flyer redemption information in its frequent
flyer literature and annual reports (e.g., the percentage of successful redemptions
and frequent flyer seats made available in the airline’s top origin and destination
markets).

Report SC-2005-051, “Review of December 2004 Holiday Air Travel
Disruptions,” February 28, 2005. Pursuant to Secretary Mineta’s request of
December 27, 2004, we issued a report on our review of the travel disruptions
experienced over the December holiday travel period by Comair and US Airways.
We found that Comair’s problems were a function of severe weather at Cincinnati
and failure of the computer system it used to schedule its crews. In Cincinnati,
Comair’s flight cancellations and delays ultimately affected approximately
269,000 passenger itineraries. Additionally, we found that US Airways’ problems
centered on staffing shortfalls going into the holiday travel period in two critical
functions—fleet service employees and flight attendants, particularly at its
Philadelphia hub. Plans to offset the staffing shortages through overtime and
increasing the required number of hours worked by flight attendants did not work.
US Airways cancelled 405 flights during the holiday travel period, affecting more
than 46,000 passengers and delayed over 3,900 flights affecting over
518,000 passengers.

Report AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in
Implementing Selected Provisions of the Airline Customer Service
Commitment,” November 21, 2006. In the 2006 follow-up review, we reported
that the airlines’ customer service plans were still in place to carry out the
provisions of the Commitment and that the Commitment provisions were still
incorporated in their contracts of carriage, as we recommended in our prior review.

We found that the airlines needed to (1) resume efforts to self-audit their customer
service plans; (2) emphasize to their customer service employees the importance
of providing timely and adequate flight information; (3) focus on the training for
personnel who assist passengers with disabilities; (4) provide straightforward,
comprehensive reporting on frequent flyer award redemptions; and (5) improve
the handling of bumped passengers.

Exhibit A. Objectives, Scope and Methodology, and Related Audit
Coverage
                                                                                 26


We also found that the Department was using its additional resources to oversee
and enforce air travel consumer protection requirements with a focus on
investigations and enforcement of civil rights issues, including complaints from
passengers with disabilities. However, when the Department discovered violations
and assesses penalties, it almost always forgave a portion of the penalty if the air
carrier agreed to mitigate the conditions and remain in future compliance with the
rule for which the penalty was assessed. The Department’s follow-up monitoring
of compliance with these conditions was limited, and in some cases there was no
follow-up monitoring by the Department.

Testimony CC-2007-042, “Refocusing Efforts To Improve Airline Customer
Service,” April 11, 2007. In April 2007, the OIG presented testimony to the
Senate Committee on Commerce, Science, and Transportation reporting that the
airlines continue to face challenges in mitigating extraordinary flight disruptions,
including long, on-board delays during extreme weather. The airlines, FAA, and
the Department cannot prevent significant weather events. What they can do,
however, is work together to plan for such events and minimize the impact on
passengers.

However, there are actions that the airlines, airports, the Department, and FAA
could undertake immediately without being prompted by Congress to do so. For
example:
 • Those airlines that have not already done so should implement quality
   assurance and performance measurement systems and conduct internal audits
   of their compliance with the Commitment provisions. The Department should
   use these systems to more efficiently review the airlines’ compliance with
   those Commitment provisions governed by Federal regulation.
 • The Department should revisit its current position on chronic delays and
   cancellations and take enforcement actions against air carriers that consistently
   advertise flight schedules that are unrealistic, regardless of the reason.
 • The airlines, airports, and FAA should establish a task force to coordinate and
   develop contingency plans to deal with lengthy delays, such as working with
   carriers and the airport to share facilities and make gates available in an
   emergency.
 • The Department’s Office of General Counsel; in collaboration with FAA,
   airlines, and airports; should review incidents involving long, on-board ground
   delays and their causes; identify trends and patterns of such events; and
   implement workable solutions for mitigating extraordinary flight disruptions.

Testimony CC-2007-046, “Actions Needed To Improve Airline Customer
Service,” April 20, 2007. In April 2007, the OIG presented testimony before the
House Transportation and Infrastructure Committee, Subcommittee on Aviation
Exhibit A. Objectives, Scope and Methodology, and Related Audit
Coverage
                                                                                27


reporting that the airlines continue to face challenges in mitigating extraordinary
flight disruptions, including long, on-board delays during extreme weather.
Similar recommendations were provided to the House committee as were
presented to the Senate committee the week before.




Exhibit A. Objectives, Scope and Methodology, and Related Audit
Coverage
                                                                       28




EXHIBIT B. SELECTED AIRLINES’ TERMS AND CONDITIONS
FOR HANDLING LONG, ON-BOARD DELAYS
    Airline      Definition of Extended   Time to Deplane Stated in
               Period of Time Stated in     Customer Service Plans
                Customer Service Plans        and/or Contracts of
                  and/or Contracts of      Carriage and/or Defined
                        Carriage            by Internal Policies (I)
Alaska         90 Minutes                 2 Hours for Arrivals
Aloha          None                       None
American       2 Hours                    4 Hours (I)
                                          (as of 4/10/07)
ATA            1 Hour for Beverages       None
               4 Hours for Catering
Continental    2 Hours                    4 Hours for Departures
                                          (as of 6/15/07)
Delta          None                       None
Hawaiian       2 Hours                    2 Hours
                                          (as of 8/01/01)
JetBlue        None                       5 Hours
                                          (as of 2/20/07)
Midwest        None                       None
Northwest      1 Hour for Arrivals        1 Hour for Arrivals
               3 Hours for Departures     3 Hours for Departures
Southwest      2 Hours                    2 Hours
United         None                       1½ Hours for Arrivals
                                          4 Hours for Departures
                                          (as of 9/05/07)
US Airways     2 Hours                    None




Exhibit B. Selected Airlines’ Terms and Conditions for Handling
Long, On-Board Delays
                                                                                                                    29




EXHIBIT C. SELECTED AIRPORTS’ POLICIES FOR ASSISTING
IN LONG, ON-BOARD DELAYS
         Airport               Plan to Deplane                             Airport Policy*
                                 Passengers
 Seattle-Tacoma                          Yes               Determine remote parking locations for
 International                                             aircraft to deplane passengers and provide
                                                           buses if requested.
 Dallas/Fort Worth                       Yes               Monitor length of time hold positions of
 International                                             aircraft. If over 2 hours, coordinate
                                                           aircraft return to gate.
 Austin/Bergstrom                        No                Determine parking spots of diverted
 International                                             aircraft.
 Indianapolis                            Yes               Provide available gate or remotely
 International                                             deplane passengers to buses upon request.
 George Bush                             Yes               Provide buses when requested.
 Intercontinental
 Hartsfield-Jackson                      Yes               Provide mobile lounges to take passengers
 Atlanta                                                   to gate when requested by airlines.
 International
 Honolulu                                No                Encourage carriers to off-load passengers
 International                                             and offer immediate assistance by, among
                                                           other things, offering use of available
                                                           airport facilities.
 John F. Kennedy                         Yes               After 2 hours and upon request, help to
 International (New                                        find alternate airport locations to safely
 York)                                                     deplane passengers.
 General Mitchell                        Yes               Provide buses when requested.
 International
 (Milwaukee)
 Minneapolis-St.                         Yes               Provide air stairs and buses to deplane
 Paul International                                        passengers when requested.
 Dallas Love Field                       Yes               Provide emergency services upon request.
 Chicago O’Hare                          No                Monitor length of time hold positions of
 International                                             aircraft.
 Phoenix Sky                             Yes               Help with deplanements via jet bridge or
 Harbor                                                    remote hardstand and provide buses to
 International                                             transport passengers.
*The policies listed in the table are not all inclusive; these are highlights from the airports’ contingency plans for
 dealing with long, on-board delays.




Exhibit C. Selected Airports’ Policies for Assisting in Long, On-
Board Delays
                                                                                             30




EXHIBIT D. STAKEHOLDERS VISITED OR CONTACTED
Airlines Visited                                Airlines Contacted
American Airlines                               Alaska Airlines         JetBlue Airways
 Headquarters, Ft. Worth, TX                    Aloha Airlines          Midwest Airlines
 DFW International Airport, TX                  American Airlines       Northwest Airlines
 Austin-Bergstrom International, TX             ATA Airlines            Southwest Airlines
 JFK International Airport, NY                  Continental Airlines    United Airlines
                                                Delta Air Lines         US Airways
                                                Hawaiian Airlines

JetBlue Airways
  Headquarters, Forest Hills, NY                                       N/A
   JFK International Airport, NY
Southwest Airlines
  Dallas-Love Field, TX                                                N/A
  Austin-Bergstrom International, TX
United Airlines
  DFW International Airport, TX                                        N/A
  JFK International Airport, NY
Continental Airlines
  Austin-Bergstrom International, TX
                                                                       N/A
Delta Airlines
JFK International Airport, NY
                                                                       N/A
Airports Visited                                Airports Contacted
Dallas/Fort Worth International                 Chicago O’Hare International
City of Austin Aviation Department              Dallas Love Field
  Austin-Bergstrom International, Austin, TX    General Mitchell International (Milwaukee)
Port Authority of New York and New Jersey       George Bush Intercontinental (Houston)
  John F. Kennedy                               Hartsfield-Jackson Atlanta International
 International, Jamaica, NY                     Honolulu International
                                                Indianapolis International
                                                Minneapolis-St. Paul International
                                                Phoenix Sky Harbor International
                                                Seattle-Tacoma International
FAA ATC Facilities Visited or Contacted         Trade Associations Contacted
DFW Air Traffic Control Tower, DFW              Air Transport Association, Washington D.C.
Airport, TX                                     Airports Council International-North America,
Air Route Traffic Control Center, Fort Worth,      Washington D.C.
TX                                              Airline Pilots Association, Washington D.C.
Austin Air Traffic Control Tower, Austin, TX    Association of Flight Attendants,
Air Traffic Systems Operations, Tactical           Washington D.C.
Operations Northeast United States,
 Jamaica, NY
JFK Air Traffic Control Tower, Jamaica, NY




Exhibit D. Stakeholders Visited or Contacted
                                                                                       31




APPENDIX. DEPARTMENT COMMENTS

                   THE SECRETARY OF TRANSPORTATION
                               WASHINGTON, D.C. 20590




September 24, 2007



MEMORANDUM TO:                Calvin L. Scovel, III

FROM:                         Mary E. Peters

SUBJECT:                      Response to OIG Recommendations for Minimizing
                              Lengthy, On-Board Flight Delays



I appreciate the hard work of the Office of the Inspector General (OIG) in preparing its
report titled “Actions Needed to Minimize Lengthy, On-Board Flight Delays.” This
report was in response to my February 26, 2007, request that, among other things, you
examine carrier policies regarding extended on-ground delays and recommend actions the
airlines, airports, or the government (including the Department) can take to prevent
incidents in which passengers are stranded on board aircraft for extended periods of time.
It goes without saying that lengthy, on-board flight delays are inconvenient to all
concerned and can be frustrating and stressful for passengers. I am fully committed to
improving the air travel environment for passengers. Toward that end, I have directed
DOT staff to carefully consider the recommendations in your report, including those for
improving the information provided the public and the manner in which passengers are
treated, including compliance by carriers with their own policies.




Appendix. Department Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
            Actions Needed To Minimize Long, On-Board Flight Delays

                              508 Compliant Presentation

Figure 1. Provisions of the Airline Customer Service Commitment

 • Offer the lowest fare available.
 • Notify customers of known delays, cancellations, and diversions.
 • Deliver baggage on time.
 • Support an increase in the baggage liability limit.
 • Allow reservations to be held or cancelled.
 • Provide prompt ticket refunds.
 • Properly accommodate disabled and special-needs passengers.
 • Meet customers’ essential needs during long, on-aircraft delays.
 • Handle “bumped” passengers with fairness and consistency.
 • Disclose travel itinerary, cancellation policies, frequent flyer rules, and aircraft
   configuration.
 • Ensure good customer service from code-share partners.
 • Be more responsive to customer complaints.
Source: Airline Customer Service Commitment, June 1999

Figure 2. Percent of Flights Delayed, Cancelled, or Diverted for Years 2000 to 2007

     Year        Percentage
For year 2000 27.4 percent
For year 2001 22.6 percent
For year 2002 17.9 percent
For year 2003 18.0 percent
For year 2004 21.9 percent
For year 2005 22.6 percent
For year 2006 24.6 percent
For year 2007 27.8 percent
Note: The percentage given for the year 2007 is based on January to July data.
Source: Bureau of Transportation Statistics data
Figure 3. Average Length of Arrival Delays for Years 2000 to 2007

      Year        Minutes
For year 2000 52.5 minutes
For year 2001 49.2 minutes
For year 2002 46.8 minutes
For year 2003 48.9 minutes
For year 2004 51.4 minutes
For year 2005 52.2 minutes
For year 2006 54.0 minutes
For year 2007 56.7 minutes
Note: The minutes of arrival delays given for the year 2007 is based on January to July
data.
Source: Bureau of Transportation Statistics data

Table 1. Number of Flights With Long, On-Board Tarmac Delays of 1 to 5 Hours or
Longer for January Through July of 2006 and 2007

 • In the first 7 months of 2006, there were 33,438 flights with on-board, tarmac delays
   of 1 to 2 hours. In the first 7 months of 2007, there were 47,558. This represents a
   42.23 percent change.
 • In the first 7 months of 2006, there were 3,781 flights with on-board, tarmac delays of
   2 to 3 hours. In the first 7 months of 2007, there were 5,213. This represents a 37.87
   percent change.
 • In the first 7 months of 2006, there were 710 flights with on-board, tarmac delays of 3
   to 4 hours. In the first 7 months of 2007, there were 1,025. This represents a 44.37
   percent change.

 • In the first 7 months of 2006, there were 120 flights with on-board, tarmac delays of 4
   to 5 hours. In the first 7 months of 2007, there were 189. This represents a 57.50
   percent change.

 • In the first 7 months of 2006, there were 27 flights with on-board, tarmac delays of
   5 hours or longer. In the first 7 months of 2007, there were 44. This represents a
   62.96 percent change.

The total number of flights with long, on-board tarmac delays of 1 to 5 hours or longer
for January through July of 2006 was 38,076. The total number of flights with long, on-
board tarmac delays of 1 to 5 hours or longer for January through July of 2007 was
54,029. This represents a 41.90 percent increase.

Source: Office of Inspector General analysis based on Bureau of Transportation Statistics
data
Figure 4. Air Travel Consumer Complaints, 2006

             Complaint                               Percentage
Flight Problems                         Accounted for 29 percent of complaints.
Baggage                                 Accounted for 22 percent of complaints.
Customer Care                           Accounted for 13 percent of complaints.
Reservations, Ticketing, and Boarding Accounted for 11 percent of complaints
Refunds                                 Accounted for 7 percent of complaints.
Disability                              Accounted for 6 percent of complaints.
Others                                  Accounted for 12 percent of complaints.
Source: Department of Transportation Air Travel Consumer Reports for 2006


Table 2. Seven Airports Accepting Most of American’s Diversions (on December
29, 2006)

             Airport                    Location                 Number of
                                                                 Diversions
San Antonio Regional            San Antonio, Texas              13 diversions
Airport
Shreveport Regional Airport     Shreveport, Louisiana           12 diversions
Adams Field Airport             Little Rock, Arkansas           11 diversions
Will Rogers World Airport       Oklahoma City, Oklahoma         11 diversions
Austin-Bergstrom                Austin, Texas                   11 diversions
International Airport
Tulsa International Airport     Tulsa, Oklahoma                 10 diversions
Midland International Airport   Midland, Texas                  10 diversions

These airports accepted a total of 78 American Airlines diverted flights on December 29,
2006.

Source: Office of Inspector General
Table 3. Length of On-Board Delay and Outcome of the 11 Diverted Flights to
Austin

 Flight Origin City and       Length of On-               Flight Outcome
     Flight Number             Board Delay
Flight Number 1348 out     On-Board Delay of 9 Flight was diverted, remained
of San Francisco,          hours 16 minutes    overnight, and arrived at DFW the
California                                     next day.
Flight Number 2412 out     On-Board Delay of 7 Flight was cancelled, rebooked, and
of Los Angeles,            hours 14 minutes    arrived at DFW the next day.
California
Flight Number 1008 out     On-Board Delay of 7 Flight was diverted, remained
of Oakland, California     hours 6 minutes     overnight, and arrived at DFW the
                                               next day.

Flight Number 534 out of   On-Board Delay of 6 Flight was diverted, remained
Fresno, California         hours 8 minutes     overnight, and arrived at DFW the
                                               next day.
Flight Number 2302 out     On-Board Delay of 2 Flight was diverted and then arrived
of Seattle, Washington     hours 26 minutes    at DFW the same day.

Flight Number 1372 out     On-Board Delay of 2 Flight was diverted, remained
of Fresno, California      hours 16 minutes    overnight, and arrived at DFW the
                                               next day.
Flight Number 330 out of   On-Board Delay of 2 Flight was diverted and then arrived
Vancouver, British         hours 8 minutes     at DFW the same day.
Columbia

Flight Number 1074 out     On-Board Delay of 2 Flight was diverted, remained
of Salt Lake City, Utah    hours 4 minutes     overnight, and arrived at DFW the
                                               next day.
Flight Number 1514 out     On-Board Delay of 1 Flight was diverted and then arrived
of San Jose, California    hour 39 minutes     at DFW the same day.

Flight Number 592 out of   On-Board Delay of 1 Flight was diverted and then arrived
Orange County,             hour 32 minutes     at DFW the same day.
California

Flight Number 1708 out     On-Board Delay of 1 Flight was diverted and then arrived
of San Diego, California   hour 31 minutes     at DFW the same day.
Table 4. Breakdown of JetBlue’s Long, On-Board Arrival and Departure Delays at
JFK

Number of On Board Delays Over 1 hour                             43
Number of On-Board Delays Over 4 hours                           26
Number of On-Board Delays Over 5 hours                           21
Number of Passengers That Endured                               2,962
On-Board Delays Over 4 hours
Average Time Delay for Arrivals                              265 minutes
Average Time Delay for Departures                            298 minutes
Source: Office of Inspector General

Table 5. Length and Outcome of JetBlue’s Long, On-Board Delays for Flights at or
Traveling to John F. Kennedy Airport

Item 1. On-Board Delays for JFK Arrivals

 • Flight out of Fort Myers, Florida, was delayed over 9 hours. The flight was
   eventually deplaned.
 • Flight out of Nashville, Tennessee, was delayed over 8 hours. The flight was
   eventually deplaned.
 • Flight out of Houston, Texas, (Hobby Airport) was delayed over 7 hours. The flight
   was eventually deplaned.
 • Flight out of Burbank, California, was delayed almost 6 hours. The flight was
   diverted and then arrived at JFK the same day.
 • Flight out of Austin, Texas, was delayed almost 6 hours. The flight was eventually
   deplaned.
 • Flight out of Orlando, Florida, was delayed for 5 and three-quarter hours. The flight
   was eventually deplaned.
 • Flight out of Long Beach, California, was delayed for 5 hours. The flight was
   diverted and then arrived at JFK the same day.
 • Flight out of Oakland, California was delayed for 4 and three-quarter hours. The
   flight was diverted and then arrived at JFK the same day.

 Item 2. On-Board Delays for JFK Departures

 • Flight to Aruba was delayed for 10 and half hours. The flight was eventually
   cancelled.
 • Flight to Burbank, California, was delayed for 9 hours. The flight was eventually
   cancelled.
 • Flight to Cancun, Mexico, was delayed for nearly 8 hours. The flight was eventually
   cancelled.
 • Flight to Syracuse, New York, was delayed for 7 and a half hours. The flight was
   eventually cancelled.
 • Flight to Houston, Texas, (Hobby Airport) was delayed for 7 and one-quarter hours.
   The flight eventually departed.
 • Flight to Buffalo, New York, was delayed for 7 and one-quarter hours. The flight
   was eventually cancelled.
 • Flight to Boston, Massachusetts, was delayed for 7 hours. The flight was eventually
   cancelled.
 • Flight to Orlando, Florida, was delayed for nearly 7 hours. The flight was eventually
   cancelled.
 • Flight to Phoenix, Arizona, was delayed for 6 and three-quarter hours. The flight was
   eventually cancelled.
 • Flight to Burbank, California, was delayed for 6 and one-quarter hours. The flight
   eventually departed.
 • Flight to Fort Lauderdale, Florida, was delayed for 6 and one-quarter hours. The
   flight eventually departed.
 • Flight to Tampa, Florida, was delayed for 5 and half hours. The flight eventually
   departed.
 • Flight to New Orleans, Louisiana, was delayed for 5 and a half hours. The flight was
   eventually cancelled.
 • Flight to New Orleans, Louisiana, was delayed for 5 and a half hours. The flight was
   eventually cancelled.
 • Flight to Burbank, California, was delayed for 5 and one-quarter hours. The flight
   eventually departed.
 • Flight to Buffalo, New York, was delayed for 5 hours. The flight eventually
   departed.
 • Flight to Seattle, Washington, was delayed for 4 and three-quarter hours. The flight
   eventually departed.
 • Flight to Long Beach, California, was delayed for 4 and a half hours. The flight was
   eventually cancelled.
 • Flight to Phoenix, Arizona, was delayed for 4 hours. The flight eventually departed.

Source: Office of Inspector General
Table 6. Average On-Board Delays on February 14, 2007, at JFK for JetBlue,
Delta, and American

Item 1. On-Board Delays for Arrivals
 • JetBlue had 14 arriving flights delayed longer than 1 hour, with an average on-board
   delay of 4 and half hours. The longest delay was 9 hours. There were 9 flights with
   delays longer than 3 hours.
 • Delta had 15 arriving flights delayed longer than 1 hour, with an average on-board
   delay of 2 and half hours. The longest delay was 4 and one-quarter hours. There
   were 6 flights with delays longer than 3 hours.
 • American had 15 arriving flights delayed longer than 1 hour, with an average on-
   board delay of 1 and half hours. The longest delay was 2 and three-quarter hours.
   There were 0 flights with delays longer than 3 hours.
Item 2. On-Board Delays for Departures
 • JetBlue had 29 departing flights delayed longer than 1 hour, with an average on-board
   delay of 5 and three-quarter hours. The longest delay was 10 and one-quarter hours.
   There were 20 flights with delays longer than 3 hours.
 • Delta had 39 departing flights delayed longer than 1 hour, with an average on-board
   delay of 3 and a half hours. The longest delay was 7 and one-quarter hours. There
   were 19 flights with delays longer than 3 hours.
 • American had 8 departing flights delayed longer than 1 hour, with an average on-
   board delay of 1 and a half hours. The longest delay was 4 and one-quarter hours.
   There were 0 flights with delays longer than 3 hours.
Source: Office of Inspector General

Exhibit B. Selected Airlines’ Terms and Conditions for Handling Long, On-Board
Delays

  Airline        Definition of Extended Period of      Time to Deplane Stated in Customer
                Time Stated in Customer Service          Service Plans and/or Contracts of
                    Plans and/or Contracts of          Carriage and/or Defined by Internal
                             Carriage                                  Policies
Alaska         Definition of extended period of        Time to deplane stated in customer
               time stated in customer service plan    service plan and/or contract of carriage
               and/or contract of carriage = 90        and/or defined by internal policies = 2
               minutes                                 hours for arrivals
Aloha          No definition of extended period of     No time to deplane stated in customer
               time stated in customer service plan    service plan and/or contract of carriage
               and/or contract of carriage             and/or defined by internal policies
American       Definition of extended period of        Time to deplane defined by internal
               time stated in customer service plan    policies = 4 hours (as of April 10,
               and/or contract of carriage = 2 hours   2007)
ATA           Definition of extended period of        No time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage =1 hour     and/or defined by internal policies
              for beverages and 4 hours for
              catering
Continental   Definition of extended period of        Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage = 2 hours   and/or defined by internal policies = 4
                                                      hours for departures (as of June15,
                                                      2007)
Delta         No definition of extended period of     No time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage             and/or defined by internal policies
Hawaiian      Definition of extended period of        Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage = 2 hours   and/or defined by internal policies = 2
                                                      hours (as of August 1, 2001)
JetBlue       No definition of extended period of     Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage             and/or defined by internal policies = 5
                                                      hours (as of February 20, 2007)
Midwest       No definition of extended period of     No time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage             and/or defined by internal policies
Northwest     Definition of extended period of        Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage =1 hour     and/or defined by internal policies = 1
              for arrivals and 3 hours for            hour for arrivals and
              departures                              3 hours for departures
Southwest     Definition of extended period of        Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage = 2 hours   and/or defined by internal policies = 2
                                                      hours
United        No definition of extended period of     Time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage             and/or defined by internal policies = 1
                                                      and a half hours for arrivals and 4
                                                      hours for departures
                                                      (as of September 5, 2007)
US Airways    Definition of extended period of        No time to deplane stated in customer
              time stated in customer service plan    service plan and/or contract of carriage
              and/or contract of carriage = 2 hours   and/or defined by internal policies
Exhibit C. Selected Airports’ Policies for Assisting in Long, On-Board Delays

      Airport           Plan to Deplane                    Airport Policy
                          Passengers
 Seattle-Tacoma        Plan to deplane       Airport policy is to determine remote
 International         passengers? Yes       parking locations for aircraft to deplane
                                             passengers and provide buses if requested.
 Dallas/Fort Worth     Plan to deplane       Airport policy is to monitor length of time
 International         passengers? Yes       hold positions of aircraft. If over 2 hours,
                                             coordinate aircraft return to gate.
 Austin/Bergstrom      Plan to deplane       Airport policy is to determine parking
 International         passengers? No        spots of diverted aircraft.
 Indianapolis          Plan to deplane       Airport policy is to provide available gate
 International         passengers? Yes       or remotely deplane passengers to buses
                                             upon request.
 George Bush           Plan to deplane       Airport policy is to provide buses when
 Intercontinental      passengers? Yes       requested.
 Hartsfield-Jackson    Plan to deplane       Airport policy is to provide mobile
 Atlanta               passengers? Yes       lounges to take passengers to gate when
 International                               requested by airlines.
 Honolulu              Plan to deplane       Airport policy is to encourage carriers to
 International         passengers? No        off-load passengers and offer immediate
                                             assistance by, among other things,
                                             offering use of available airport facilities.
 John F. Kennedy       Plan to deplane       Airport policy is to, after 2 hours and
 International (New    passengers? Yes       upon request, help to find alternate airport
 York)                                       locations to safely deplane passengers.
 General Mitchell      Plan to deplane       Airport policy is to provide buses when
 International         passengers? Yes       requested.
 (Milwaukee)
 Minneapolis-St.       Plan to deplane       Airport policy is to provide air stairs and
 Paul International    passengers? Yes       buses to deplane passengers when
                                             requested.
Dallas Love Field       Plan to deplane      Airport policy is to provide emergency
                        passengers? Yes      services upon request.
Chicago O’Hare          Plan to deplane      Airport policy is to monitor length of time
International           passengers? No       hold positions of aircraft.
Phoenix Sky             Plan to deplane      Airport policy is to help with
Harbor                  passengers? Yes      deplanements via jet bridge or remote
International                                hardstand and provide buses to transport
                                             passengers.
Note: The policies listed in the table are not all inclusive; these are highlights from the
airports’ contingency plans for dealing with long, on-board delays.
Exhibit D. Stakeholders Visited or Contacted

Airlines Visited:

 • American Airlines—at its headquarters in Fort Worth, Texas, at DFW International
   Airport, Texas, at Austin-Bergstrom International, Texas, and at JFK International
   Airport, New York.
 • JetBlue Airways—at its headquarters in Forest Hills, New York, and at JFK
   International Airport, New York.
 • Southwest Airlines—at Dallas-Love Field, Texas, and at Austin-Bergstrom
   International, Texas.
 • United Airlines—at DFW International Airport, Texas, and at JFK International
   Airport, New York.
 • Continental Airlines—at Austin-Bergstrom International, Texas.
 • Delta Airlines—at JFK International Airport, New York.

 Airlines Contacted:

 • Alaska Airlines
 • Aloha Airlines
 • American Airlines
 • ATA Airlines
 • Continental Airlines
 • Delta Air Lines
 • Hawaiian Airlines
 • JetBlue Airways
 • Midwest Airlines
 • Northwest Airlines
 • Southwest Airlines
 • United Airlines
 • US Airways

Airports Visited:

 • Dallas/Fort Worth International
 • City of Austin Aviation Department at Austin-Bergstrom International, Austin, Texas
 • Port Authority of New York and New Jersey at John F. Kennedy International,
   Jamaica, New York

Airports Contacted:

 • Chicago O’Hare International
 • Dallas Love Field
 • General Mitchell International (Milwaukee)
 • George Bush Intercontinental (Houston)
 • Hartsfield-Jackson Atlanta International
 • Honolulu International
 • Indianapolis International
 • Minneapolis-St. Paul International
 • Phoenix Sky Harbor International
 • Seattle-Tacoma International


Federal Aviation Administration Air Traffic Control Facilities Visited or
Contacted:

 • DFW Air Traffic Control Tower, DFW Airport, Texas
 • Air Route Traffic Control Center, Fort Worth, Texas
 • Austin Air Traffic Control Tower, Austin, Texas
 • Air Traffic Systems Operations, Tactical Operations Northeast United States,
   Jamaica, New York
 • JFK Air Traffic Control Tower, Jamaica, New York

Trade Associations Contacted

 • Air Transport Association, Washington, D.C.
 • Airports Council International-North America, Washington, D.C.
 • Airline Pilots Association, Washington, D.C.
 • Association of Flight Attendants, Washington, D.C.
